                       UNITED STATES DEPARTMENT OF EDUCATION 

                                        OFFICE OF INSPECTOR GENERAL 

                                  1999 BRYAN STREET, HARWOOD CENTER, SUITE 2630 

                                             DALLAS, TEXAS 75201-6817 

                                       PHONE: (214) 880-3031 PAX: (214) 880-2492 


                                                      SEP 29 2003

Mr. Tommy G. Flud, Superintendent
Mt. Judea Public School
P.O. Box 40
Mt. Judea, AR 72655

Dear Mr. Flud:

This Final Audit Report (ED-OIG/A06-DOOI4) presents the results of our audit ofthe 21 st
Century Community Learning Centers (21 st Century) grant to Mt. Judea Public School (Mt.
Judea) for the period June 1,2000, through January 31,2003. Our objective was to determine
whether Mt. Judea properly accounted for and used 21 st Century grant funds in accordance with
the Elementary and Secondary Education Act of 1965 (ESEA), as amended by the Improving
America's Schools Act of 1994; Education Department General Administration Regulations
(EDGAR); grant terms; and the cost principles in Office of Management and Budget (OMB)
Circular A-87.

We provided a copy of this report to Mt. Judea. The draft report identified $24,786 in
unallowable costs and $372,714 in unsupported costs. In its response to our draft report Mt.
Judea agreed with our finding and recommendations. We have summarized Mt. Judea's
comments after the recommendations section of the report and have included the response as
Attachment 2.




Title X, Part I, of the ESEA, as amended, authorizes the 21 st Century program. The program
awards three-year grants that provide funds to rural and inner city schools or consortia of schools
to enable them to plan, implement, or expand projects that benefit the educational, health, social
service, cultural, and recreational needs of the community. The program, funded at $846 million
for fiscal year 2001, enables schools to stay open longer and set up community learning centers.

A community-learning center is an entity within a public elementary, middle, or secondary
school building that provides educational, recreational, health, and social service programs for
residents of all ages within a local community. A local educational agency operates the
community-learning center in conjunction with local governmental agencies, businesses,
vocational educational programs, institutions of higher education, community colleges, and
cultural, recreational, and other community and human service entities. The center must include
no less than 4 of the 13 activities listed in Title X, Part I, Section 10905 ofthe ESEA, as
amended. The local educational agency is encouraged to use the funds to accomplish activities



      Our mission is to promote the efficiency, effectiveness, and integrity ofthe Department's programs and operations
ED-OIG/A06-D0014                                                                       Page 2 of6


that offer significant expanded learning opportunities for children and youth in the community
and that contribute to reduced drug use and violence. The programs may support health needs,
literacy education, children's day care services, and telecommunications and technology
education for individuals of all ages.

The Department of Education awarded Mt. Judea a 21 st Century grant totaling $915,493. The
award amounts, by budget period, were­


                          6/1/00-5/31/01          $310,076
                          6/1/01-5/31/02          $298,276
                          6/1/02-5/31/03          $307.141
                                  Total           $915,493

In its first two years of operation, Mt. Judea's programs included after school, summer school,
children's day care services, General Educational Development (GED), gymnastics, martial arts,
adult computer class, high school physics, and summer basketball camp.




Mt. Judea did not properly account for and use 21 st Century grant funds in accordance with all
applicable regulations, grant terms, and cost principles. Mt. Judea charged the grant for
unallowable costs ($24,786) and costs for which it did not maintain adequate support ($372,714).
The unallowable amount consists of charges for salary ($18,000), fringe benefits ($3,516),
children's day care services ($2,932), travel ($114), and employee reimbursement ($224). The
unsupported amount consists of charges for payroll ($314,235) and fringe benefits ($58,479) for
which Mt. Judea did not provide adequate documentation to support that the costs were
reasonable, allowable, and allocable. Details oftl)e unallowable and unsupported costs are
discussed in Attachment 1.

OMB Circular A-87, Cost Principles/or State, Local, and Indian Tribal Governments,
Attachment A, Paragraph C.l (1997) provides that-

     To be allowable under Federal awards, costs must ... Be necessary and reasonable for
     proper and efficient performance and administration of Federal awards ... Be allocable
     to Federal awards ... Be adequately documented.

We concluded that this condition occurred because Mt. Judea did not establish a formal system
of management controls, policies, procedures, and practices to administer the 21 st Century grant.
Mt. Judea used informal procedures to document personnel and vendor transactions. However,
these informal procedures were not always followed resulting in unallowable and unsupported
costs charged to the grant. Because the grant performance period ended May 31, 2003, we will
not recommend that Mt. Judea establish a formal system of management controls and train
personnel in accounting for federal funds.
                                             -   ---------------------------------........ 



ED-OIG/A06-D0014 	                                                                      Page 3 of6




We recommend that the Chief Financial Officer in consultation with the Assistant Secretary for
Elementary and Secondary Education instruct Mt. Judea to­

    1. 	 Refund to the Department of Education unallowable costs of $24,786 and,

   2. 	 Provide sufficient documentation to support $372,714 or refund that amount to the
        Department of Education.




Mt. Judea agreed with our finding and recommendations and has started corrective action on
both recommendations. Mt. Judea stated that it had submitted a proposal to the Department to
restore the funds identified as unallowable costs in Recommendation 1. Mt. Judea also stated
that it had started to obtain alternative documentation to support the payroll and fringe benefits
identified in Recommendation 2.




After reviewing Mt. Judea's response, we did not change our recommendations. Mt. Judea's
proposed alternative corrective action for Recommendation I, of a cost-share initiative to restore
the unallowable costs to the Department, and the alternative documentation they are obtaining to
support the unsupported costs outlined in Recommendation 2, need to be evaluated by the Office
of the Chief Financial Officer.




The objective of our audit was to determine whether Mt. Judea properly accounted for and used
21 st Century grant funds from June 1,2000, through January 31,2003, in accordance with the
ESEA, as amended; EDGAR; grant terms; and the cost principles in OMB Circular A-87,
effective August 29, 1997.
ED-OIG/A06-D0014 	                                                                     Page 4 of6



To accomplish our objective, we­

   • 	 Reviewed the financial statement and OMB Circular A-133 audit report for the year
       ended June 30, 2001;
   • 	 Reviewed Mt. Judea's 21 st Century grant application and budget narrative;
   • 	 Reviewed Mt. Judea's Grant Performance Report~;
   • 	 Reviewed Mt. Judea's School Board Minutes for meetings from July 2000 through 

       February 2003; 

   • 	 Reviewed written policies and procedures for budgeting, accounting, procurement, 

       payroll, and fringe benefits for the 21 st Century grants; 

   • 	 Judgmentally selected and reviewed 5 of29 pay periods and all the associated payroll
       transactions. We selected months that were: (1) near the beginning, middle, and end of
       our audit period; (2) during the summer program; and, (3) during winter and spring
       breaks;
   • 	 Judgmentally selected and reviewed purchase orders, invoices, cancelled checks, receipts,
       and other supporting documents for 152 transactions from a universe of 488 transactions.
       The reviewed transactions account for 65 percent of the total dollars expended to
       vendors. We reviewed all the transactions for daycare (27), all indirect costs (3), all
       charges for evaluators/consultants (9), and all employee reimbursements (42). We also
       reviewed 6 student transportation expenditures and 65 general expenditures. The general
       expenditures originated from five unduplicated vendors for each of the three budget
       periods. The vendors were selected based on type of service provided without regard to
       dollar value; and
   • 	 Interviewed various Mt. Judea employees, contractors, and Department of Education
       officials.

To achieve our audit objective, we relied, in part, on computer-processed data related to the 21 st
Century program contained in Mt. Judea's accounting system. We verified the completeness of
the data by comparing source records to computer-generated data, and verified the authenticity
by comparing computer-generated data to source documents. Based on these tests, we concluded
that the data were sufficiently reliable to be used in meeting the audit's objective.

We conducted our fieldwork at Mt. Judea Public School 21 st Century Community Learning
Center between February 18,2003, and March 21,2003. We discussed the results of our audit
with Mt. Judea officials on March 20,2003. An exit conference was held with Mt. Judea
officials on April 24, 2003.

Our audit was performed in accordance with generally accepted government auditing standards
appropriate to the scope of audit described above.
ED-OIG/A06-D0014                                                                          Page 5 of6




As parfof our review, we relied on substantive testing of costs charged to the 21 st Century grant
to test management controls. Our testing disclosed instances of non-compliance with federal
regulations, grant terms, and cost principles that led us to conclude that weaknesses existed in
Mt. Judea's controls over the 21 st Century grant. These weaknesses and their effects are
discussed in the AUDIT RESULTS section of this report.




Statements that managerial practices need improvements, as well as other conclusions and
recommendations in this report represent the opinions of the Office of Inspector General.
Determinations of corrective action to be taken will be made by the appropriate Department of
Education officials.

If you have any additional comments or information that you believe may have a
bearing on the resolution of this audit, you should send them directly to the following
Education Department officials, who will consider them before taking final
Departmental action on the audit.

                      Jack Martin
                      Chief Financial Officer
                      Office of the Chief Financial Officer
                      400 Maryland Avenue, SW, Room 4E313
                      Washington, DC 20202

It is the policy of the U.S. Department of Education to expedite the resolution of audits
by initiating timely action on the findings and recommendations contained therein.
Therefore, receipt of your comments within 30 days would be greatly appreciated.
ED-OIG/A06-D0014                                                                       Page 6 of6



In accordance with the Freedom oflnformation Act (5 U.S.C. § 552), reports issued by
the Office of Inspector General are available, if requested, to members of the press and
general public to the extent information contained therein is not subject to exemptions
in the Act.




                                                    j:el~_4
                                               r     Sherri L. Demmel
                                                     Regional Inspector General
                                                      for Audit

Attachments
                                                                               ATTACHMENT 1


                       MT. JUDEA PUBLIC SCHOOL 

            21 st CENTURY COMMUNITY LEARNING CENTER 

        SCHEDULE OF UNALLOWABLE AND UNSUPPORTED COSTS 

                 JUNE 1,2000, THROUGH JANUARY 31, 2003 


               Cost Category             Unallowable Notes        Unsupported Notes
                                            Costs                    Costs
         Payroll                              $18,000  11)            $314,235   131
         Fringe Benefits                        3,516   2)              58,479   14)
         Children's Daycare Services            2,932   5)                   0
         Travel                                   114   6)                   0
         Employee Reimbursement                   224   7)                   0
                              Totals          $24,786                 $372,714

Notes
(1) 	 Represents (a) severance pay ($12,000) to the Project Director that was denied by the
      Department and (b) suspension pay ($6,000) to the Project Director for which no benefit
      was received by the grant. OMB Circular A-87, Attachment B, Paragraph 11.g (3)
      (1997) states, "Abnormal or mass severance pay will be considered on a case-by-case
      basis and is allowable only if approved by the cognizant Federal agency." OMB Circular
      A-87, Attachment A, Paragraph c., Subparagraph 3(a)(1997) states, " A cost is allocable
      to a particular cost objective ... in accordance with relative benefits received."
      Therefore, these costs are questioned.

(2) 	   Represents the fringe benefits ($3,516) related to the Project Director's severance and
        suspension pay. OMB Circular A-87, Attachment B, Paragraph 11.d (5) (1997) states,
        "[Fringe] benefits ... shall be allocated to Federal awards ... in a manner consistent with
        the pattern of benefits attributable to the individuals or group(s) of employees whose
        salaries and wages are chargeable ...." Because the severance pay and suspension pay
        are questioned, the related fringe benefits are questioned.

(3) 	   Represents payroll charges ($314,235) not supported by personnel activity reports or
        equivalent documentation that meet the required standards set forth in OMB Circular A­
        87, Attachment B, Paragraph 11.h (5) (1997). The Circular states that, "Personnel
        activity reports or equivalent documentation must ... account for the total activity for
        which each employee is compensated ... and must be signed by the employee ...."

(4) 	   Represents the fringe benefits ($58,479) related to the unsupported salaries. OMB
        Circular A-87, Attachment B, Paragraph 11.d (5) (1997) states, "[Fringe] benefits ...
        shall be allocated to Federal awards ... in a manner consistent with the pattern of
        benefits attributable to the individuals or group(s) of employe,--s whose salaries and wages
        are chargeable ..." Because the salaries are unsupported, the related fringe benefits are
        unsupported.




                                              Page 1
                                                                              ATTACHMENT 1


(5) 	   Represents contractual services costs ($2,932) for which no benefit was received by the
        grant. The children's daycare provider submitted invoices for days that the facility was
        closed. According to OMB Circular A-87, Attachment A, Paragraph c., Subparagraph 3
        (1997) states, " A cost is allocable to a particular cost objective ... in accordance with
        relative benefits received."

(6) 	   Represents (a) the portion of meals that exceeded the daily per-person limit contained in
        the Mt. Judea grant proposal ($104.05) and (b) entertainment ($9.95). According to
        OMB Circular A-87, Attachment B, Paragrap?'s 41.a. and 41.b (1997), travel costs are
        allowable for (1) expenses incurred by employees traveling on official business, and (2)
        subsistence to the extent such costs do not exceed charges normally allowed in regular
        operations as a result of policy. OMB Circular A-87, Attachment B, Paragraph 18
        provides that costs of entertainment are unallowable.

(7) 	   Represents employee reimbursements ($224) that Mt. Judea could not substantiate.
        According to OMB Circular A-87, Attachment A, Paragraph c., Subparagraph lJ.
        (1997), to be allowable, costs must be adequately documented.




                                              Page 2
                             Mt. Judea Public School. ATTACHMENT 2 

                                       Tommy G. Flud, Superintendent

School: (870) 434-5362
Counselor: (870) 434-5361                                                                         P. O. Box 40
Fax: (870) 434-5359                                                                Mt. Judea, Arkansas 72655
    September 3,2003



    TO:            United States Department of Education, Sherri L. Demmel

    FROM:          Mt. Judea Public School, Tommy Flud

    SUBJECT:       Draft Audit Report Recommendations

    Audit Recommendation #1 - Refund to the Department of Education unallowable costs of
    $24,786.

    Corrective Action #1 - I agree with the findings and have started to work on a corrective action
    plan with the U. S. Department of Education. June 20,2003 I submitted a proposal to Stephen
    Balkcom, 21 st Century Comm~nity Learning Center Project Director, to allow a cost-share
    initiative:: to restore the funds identified as unallowable cost. This cost-share initiative considered
    the unallowable cost as matched by the donated land, construction, and quarter base rock to off­
    set the pay back. The number one benefit ofthe proposal is that of a continued after-school
    Alcohol and Drug Prevention. See attached letter of the proposal and a letter of approval signed
    by Stephen Balkcom.


    Audit Recommendation #2 - Provide sufficient documentation to support $372,714 payroll and
    fringe benefits or refund that amount to the U.S. Department of Education.

    Corrective Action #2 - I agree with the findings and have started to work on a corrective action
    plan with the U. S. Department of Education. I will get certification for the payroll and fringe
    benefits not documented and I will provide them to the Department Program Officials for audit
    resolution upon request. I know all the employees worked the hours that they were paid for and I
    will be obtaining signed assurances from each employee to support payroll documentation. The
    signed assurance from each employee will certify that the employee did perform those duties and
    that correct wages were paid for hours worked.

     Thank you for your assistance with the Audit and I will do whatever needs to be done to assist
     you in any way possible to resolve the Audit Recommendations.




     Tomm
     Superintendent of Schools
